        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Potential Uses for Depleted Uranium
Oxide




DOE/IG-0810                           January 2009
                                  Department of Energy
                                    Washington, DC 20585
                                     January 9 , 2009


MEMORANDUM FOR THYSECRETARY
                 -            I     -
FROM:
                         Inspector General

SUBJECT':                INFORMATION: Audit Report on "Potential Uses For
                         Depleted Uranium Oxide"

BACKGROUND

The Department of Energy's Office of Environmental Management (EM) manages
approximately 700,000 metric tons of depleted uranium hexafluoride at the gaseous
diffusion plants located near Paducah, Kentucky. and Portsmouth, Ohio. It plans to
convert the depleted uranium hexafluoride to a stable material. The conversion process
will produce approximately 55 1,000 metric tons of depleted uranium oxide - a relatively
stable form that can be handled and disposed of by direct burial or, potentially, used in
various materials or products. Over a period of about 13 years, the Department has
conducted research which established that the oxide could possibly be used in catalysts,
semiconductors, nuclear repository applications and radiation shielding products.

In August 2002, the Department awarded a contract to Uranium Disposition Services,
LLC (UDS) to perform the conversion. In July 2004, UDS started construction of
conversion facilities in Paducah and in Portsmouth. As of June 2008, UDS planned on a
May 201 0 start date for full operations at Portsmouth and a September 20 10 start date for
operations at Paducah. The current life cycle cost of the conversion pro-ject is
approximately $3.5 billion, including costs to dispose of the oxide by burial.

The Department developed a strategy which included a continuing effort to explore
potential uses for the converted product. We initiated this audit to determine whether the
Department had adequately followed through on identifying potential uses for depleted
uranium oxide.

RESUL'I'S OF AUDIT

Our audit disclosed that the Department had not taken adequate action to facilitate
development of depleted uranium oxide-based products. In spite of iinding potential uses
that have shown promise, the Department plans to dispose of virtually the entire 55 1,000
metric tons of depleted uranium oxide produced by the conversion process as low-level
waste at an estimated cost of about $428 million. In particular, we noted that:

       Beyond basic research, little action had been taken to develop practical
       applications for, or products involving the oxide;
                                             2


   •   For the single application area where research had extended to preliminary
       development and testing, all funding from outside sources had been expended.
       Yet, the Department had provided only a small portion of promised funding and
       had no plans for providing additional funding. Such funding would have
       supported the development of working or scale models to evaluate patented
       nuclear repository applications.

Between 1994 and 2006, the Department evaluated multiple uses for the depleted
uranium oxide. However, only one of these uses, spent nuclear fuel (SNF) shielding
applications, was pursued to the point of being demonstrated as useful for application. In
November 2006, researchers at the Oak Ridge National Laboratory reported, based on a
27-month study, that depleted uranium aggregate could be successfully combined with
concrete to produce a product known as DUCRETE, providing effective radiation
shielding. Researchers noted that this product could be useful for a number of SNF
applications in both the Federal and commercial sectors.

Management officials informed us, however, that the Department had discontinued
funding research for alternative uses for depleted uranium oxide in 2005 because EM's
technology development budget had been significantly reduced. They also noted that the
Department was not actively pursuing other uses because it believed that there were no
alternatives that would consume the entire depleted uranium oxide inventory. In short, a
piecemeal approach was unacceptable. Finally, they indicated that the Department had
concluded that it was now the responsibility of the private sector to continue research and
development for finding alternative uses for depleted uranium oxide. As discussed in the
attached report, we did not find these reasons to be compelling in light of the potential to
avoid significant disposal costs.

Despite the results of research over the past few years demonstrating that there are viable
re-use options, the Department currently does not plan to pursue any alternatives. Thus,
absent additional action, the Department will be forced to incur $428 million in disposal
costs over a 25-year period. The programmatic competition for the Department's finite
resources is often intense; yet, the potential to avoid significant disposal costs through
alternative uses of conversion oxides offers the promise of directing funds now targeted
for disposal to other high-priority mission needs.

To address the issues described in our report we made several recommendations designed
to help increase the potential for reuse of the converted materials and avoidance of direct
disposal costs.

MANAGEMENT REACTION

Management concurred with our recommendations. Although Management stated that it
currently could see no commercial use for the depleted uranium oxide, it agreed that it
may be beneficial to reassess interest as conversion facilities near completion and can be
expected to begin producing significant quantities of the oxide. To that end the Office of
Environmental Management committed to issuing an expression of interest by January
2010 to identify potential interest from industry for uses of depleted uranium oxide.
Management's comments are summarized in the body of the report and are attached as
Appendix 2.

Attachment

cc:   Acting Deputy Secretary
      llnder Secretary of Energy
      Chief of Staff
      Team Leader, Office of Internal Review, CF-1.2
      Audit 1,iaison. Environnemental Management, EM-33
      Audit 1,iaison. Portsmouth/Paducah Pro-ject Office, PPPO
REPORT ON POTENTIAL USES FOR DEPLETED URANIUM OXIDE



TABLE OF
CONTENTS


  Alternative Uses for Depleted Uranium Oxide
              . .
  Details of Flndlns ..................................................................................................................              1

  Recommendations                ................................................................................................................    4

                                                                                                                                      5
  ConlJnents............-...........-.....--.-................---...---...----...---........................-......-......................


  Appendices
        . .
   1. Oblectlve, Scope, and Methodology                              .............................................................................   6

   2. Manasenlent Comments ................................................................................................                          8
ALTERNATIVE USES FOR DEPLETED URANIUM OXIDE

Investigating      The Department of Energy (Department) had not adequately
Alternative Uses   followed through on investigating potential uses for the disposition
                   of the depleted uranium oxide. While several potential uses have
                   been identified and considered, we found that little had been done
                   to pursue these alternatives. Only one technology, the use of
                   depleted uranium oxide for shielding applications, was studied to
                   the point of proven viability. However, rather than pursue this
                   alternative, the Department plans to dispose of the ma-jority of the
                   oxide as low-level waste at an estimated disposal cost of
                   approximately $428 million.

                                          Potential Alternatives

                   As required by a February 1998 Consent Order, the Department
                   reports annually to the Ohio Environmental Protection Agency
                   (EPA) on the status of its depleted uranium hexafluoride (DUF6)
                   conversion activities, including its efforts to identify alternative
                   uses. In its December 2007 report, the Department noted that a
                   number of beneficial uses for the depleted uranium oxide
                   conversion product had been identified to date. Among these were
                   the use of depleted uranium in catalysts, semiconductors,
                   repository applications and radiation shielding products.

                   In 2000, the Department introduced the potential use of depleted
                   uranium catalysts to decompose a range of volatile organic
                   compounds. Research continued and in 2004 the Department
                   reported that a catalyst formulation, based upon a mixed titanium
                   uranium oxide, was found to be competitive with noble metal
                   catalysts. However, the Department terminated further research at
                   the beginning of Fiscal Year 2004. It was also believed that
                   depleted uranium oxide had electronic properties equivalent to or
                   better than conventional sen~iconductormaterials. The Department
                   conducted limited research to measure the semiconducting
                   properties of solid-crystal depleted uranium dioxide and construct
                   and test a uranium-based diode and transistor. In 2004, while
                   research was in its fundamental stage and the concept not yet
                   proven, the Department terminated efforts on this alternative.

                   The Department also began evaluating the use of depleted uranium
                   oxide for spent nuclear fuel (SNF) repository and shielding
                   applications. These applications included using depleted uranium
                   dioxide particulates as fill material for SNF repositories, as
                   replacement components for steel in constructing the SNF waste
                   packages, and as a chemical sorption barrier in SNF repositories.
                   For example, using funding from the Department of State in 2003,
                   Russian scientists initiated experiments resulting in a 2006 report



Page 1                                                             Details of Finding
         which showed that depleted uranium oxide can be successfully
         used as a chemical and physical sorption barrier in SNF
         repositories to reduce radionuclide releases. However, all
         available funding has been expended and work on the use of
         depleted uranium oxide for repository applications has now been
         discontinued.

         The other application which showed significant promise was the
         use of depleted uranium oxide for radiation shielding products,
         specifically SNF casks. In 2003, the Department's research
         became focused on uses that had the potential to consume a
         significant portion of the stored inventory of DUF6 and in
         September 2004, the Acting Assistant Secretary for Environmental
         Management (EM) approved $420,000 of funding for the
         development of a new production technology for fabrication of
         depleted uranium aggregate. This new technology used an
         approach that had the potential to be a low-cost, high-throughput
         method for production of depleted uranium aggregate. Ultimately,
         only $125,000 of these funds was provided to the project and those
         funds have now been expended.

         In November 2006, researchers at the Oak Ridge National
         Laboratory (ORNL) reported, based on a 27-month study, that
         depleted uranium aggregate could be successfully combined with
         concrete (DUCRETE) to provide adequate radiation shielding and
         was useful for a number of SNF applications in both the federal
         and commercial sectors. For example, using DUCRETE to
         construct nuclear casks would not only provide adequate shielding
         but would result in smaller cask size and reduced weight. This
         could significantly reduce the cost of storage container loading by
         eliminating the need for transfer casks that have specific weight
         and size restrictions. Further, it could reduce occupational
         radiation dose associated with handling the SNF for transportation.

                          Funding for Potential Alternatives

         In its 2007 report to the Ohio EPA, the Department stated it had
         approved $1 million of funding to fabricate and test a prototype
         DUCRETE transport and storage cask and that the work continued
         into 2007. However, we noted that the Department had not
         provided the funding to fabricate and test a DUCRETE cask. In
         fact, despite the success of the research over the past few years and
         the potential to reduce disposal costs, the Department currently
         does not plan to pursue any of the previously described
         alternatives. Currently, the Department plans to utilize about 1,200
         metric tons for the mixed oxide fuel project, recycle a portion of



Page 2                                                   Details of Finding
                     DUF6, and dispose of the remaining volume as low-level waste.
                     The Department's estimated cost for disposing of the oxide over a
                     25-year period is approximately $428 million, if the inventory of
                     DUF6 prior to conversion is not reduced by recycling or re-use.

Discontinuation of   The Department decided to curtail its pursuit of uses for depleted
Research Funding     uranium oxide in 2005 because: its Technology Development
                     budget had been significantly reduced since 2002; it believed there
                     were no alternatives that would consume the entire oxide
                     inventory; and, it was now the responsibility of the private sector
                     to continue research and development into finding alternative uses
                     for the material.

                                             Reduction in Budget

                     From 2002 through 2005, EM's Technology Development budget
                     was reduced nearly 71 percent from approximately $200 million to
                     $58 million. In 2007, the budget was further reduced to
                     approximately $21 million. With limited funding, EM's
                     management did not consider the effort for DUFb to be a high
                     priority. While funding may be limited, based on discussions with
                     the ORNL Project Manager, modest investments sufficient to
                     continue the research for alternative use for depleted uranium
                     oxide have the potential to avoid significant disposal costs. For
                     example, in addition to avoiding disposal costs, using depleted
                     uranium oxide for DUCRETE in nuclear shipping and storage
                     casks provides additional benefits in other program areas that may
                     not have been fully considered. Further, as confirmed by ORNL's
                     recent study, the use of depleted uranium oxide as a radiation
                     shielding material appears to be a viable alternative that has the
                     potential to reduce the life-cycle cost of the DUF6 conversion
                     project.

                                          Consumption of Inventory

                     Management officials also indicated that another factor leading to
                     their decision to discontinue research in uses of depleted uranium
                     oxide was that the technologies under consideration would only
                     make piecemeal or incomplete use of the entire inventory.
                     However, our review disclosed that the ORNL study showed that
                     the use of depleted uranium aggregate in radiation shielding has
                     the potential for consuming the entire depleted uranium inventory.
                     In addition, the studies for repository applications noted that these
                     applications could consume half or more of the depleted uranium
                     inventory.




Page 3                                                                Details of Finding
                                      Engagement of the Private Sector

                     The Department stated that it believed it is now the responsibility
                     of the private sector to continue research and development for
                     finding alternative uses for depleted uranium oxide. Further,
                     management officials informed us that even if there was a potential
                     use for the depleted uranium oxide, they did not believe that there
                     was a market for it. However, we found that the Department had
                     not engaged private industry on further development of alternatives
                     since 2005. Specifically, between 2003 and 2005, the Department
                     pursued several Cooperative Research and Development
                     Agreements (CRADAS) to commercialize the use of DUCRETE
                     with SNF cask vendors. However. two of the CRADAs were
                     never finalized because the parties either lacked the resources and
                     manpower to complete the work at the time or the pro-ject extended
                     beyond the company's business planning cycle. Even though the
                     technology for DUCRETE has now been proven by ORNL. the
                     Department has not re-engaged the private sector since 2005 and
                     has no intention of doing so.

Impact on Disposal   The Department has the potential to significantly reduce disposal
Costs of Depleted    costs. For example, developing DUCRETE casks could reduce the
Uranium Oxide        planned disposal costs. According to the ORNL Pro-ject Manager,
                     depending on the option taken, the effort to build, test, and license
                     the DUCRETE cask is estimated to be somewhere between
                     approximately $7 to $1 5.1 million. Conversely, the estimated cost
                     to treat the material as low-level waste and bury it is approximately
                     $428 million. While we recognize that additional costs may be
                     required to commercialize SNF casks made from DUCRETE, the
                     delta is significant enough to warrant the consideration of pursuing
                     this and other alternatives further.

RECOMMENDATIONS      To help ensure that potential alternatives of depleted uranium
                     oxide are fully evaluated, we recommend that the Assistant
                     Secretary, Environmental Management:

                          1 . Re-engage industry on developing alternative uses for
                              depleted uranium oxide; and,

                         2. Clarify the current status of research for alternative uses for
                            depleted uranium oxide to the Director of the Ohio EPA.




Page 4                                                               Recommendations
MANAGEMENT    The Acting Assistant Secretary for Environmental Management
AND AUDITOR   concurred with the recommendations in the final report.
COMMENTS      Regarding recommendation 1, management stated that the
              Department will issue an expression of interest, by January 201 0,
              related to the depleted uranium oxide to identify any potential
              interest from industry. Management also agreed to inform the
              Director of the Ohio EPA that work on the DUCRETE transport
              and storage cask in Russia has stopped and no further actions are
              expected for the foreseeable future due to lack of commercial
              interest. Our draft report also included an additional
              recommendation that the Department review and evaluate the
              feasibility to continue funding research for spent nuclear fuel
              shielding applications. In commenting on this recommendation,
              management stated that sufficient evaluation of alternative uses for
              depleted uranium oxide has been conducted and that it was not
              EM'S mission to develop and/or implement commercial
              applications.

              We consider Management's comments and planned actions to be
              responsive to the report's recommendations. Although the
              Department felt sufficient research had already been conducted,
              the issuance of an expression of interest should aid in the
              identification of any useful and economical commercial
              applications. For this reason, our recommendation to review and
              evaluate the feasibility of continuing funding for research of spent
              nuclear fuel shielding was removed from the final report.

              Management's verbatim comments are included in Appendix 2 of
              the report.




Page 5                                                                Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) had adequately followed
              through on investigating potential uses for the depleted uranium
              oxide.
SCOPE         We conducted the audit from November 2007 through August
              2008, at Department Headquarters in Washington, D.C., and the
              Portsmouth/Paducah Project Office in Lexington, Kentucky. The
              audit scope included all depleted uranium oxide disposition efforts
              since the inception of the program.
METHODOLOGY   To accomplish the audit objective, we:
                     Reviewed regulations, directives, contract requirements,
                     and performance measures relating to the DUF6 program
                     and oxide disposition;
                     Evaluated internal controls over the program;

                     Reviewed prior audits and reviews relating to the depleted
                     uranium hexafluoride (DUF6) program;

                     Reviewed disposition alternatives identified by the
                     Department with the associated studies, funding, risks,
                     requirements, and current status; and,

                     Held discussions with key Department officials responsible
                     for disposition of the depleted uranium oxide.
              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. The audit included tests
              of controls and compliance with laws and regulations necessary to
              satisfy the audit objective. Because our review was limited, it
              would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. The
              disposition project for the depleted uranium oxide did not have
              specific performance measures associated with the Government
              Pecfi)rmunce and Results Act of l Y Y 3 therefore we could not assess
              the Department's efforts in meeting these measures. Also, we did
              not rely upon computer processed data to accomplish our audit
              objective.

              Management waived an exit conference.



Page 6                                    Objective, Scope, and Methodology
Appendix 2



                                       Department of Energy
                                          Wash~ngton.DC 20585
                                        November 2 6 , 2 0 0 8


             MI.:MORANI)UM FOK I<ICIKEY R. FIASS
                               ASSISTAN'I' INSPI<C'I'OR CiENliRAl,
                                 1:01<ENVIKONMENI'AI,, SC[t<NCl<,
                                 AN11 C0RI'ORA'~PI~      AIJDI'1.S
                               0FI:ICI: 0 1 : TI IF INSI'ECTOK GENERAI.

             FROM



             S[JI3Jl<C'l':             h a l i Kcport on "Audit of Potential lises for 1)cplctcd
                                       [Jranium Oxide"

              I'hank you for the opportunity to review the draft rcport on thc subject audit. 'l'he
             rcport statcs that thc I)epartnient has not adequately followed through on
             investigating potential i ~ s c sfor depleted uranium oxidc, and that while several
             potcntial uses have been idcntilicd and considered, little has been done to pursue
             these alternatives. 'l'he report also states that the Department plans to dispose of
             the majority of the oxide as low-level waste. We have evaluated the contents of
             the drati rcport and provide the k~llowingIbr your consideration.

             The 1)epartment consiclers that sufficient cvaIuation of alternative uses for dcplctcd
             uranium oxidc has been conducted and that no substantive basis exists for pursuing
             new studies at this time. The lack of commercial intercst in the use of this material
             does not warrant fi~rthcrinvestigation at this time.

             'l'hc Depleted Uranium Research and Development Activities for I:iscal Year 2007
             rcport sent to the Ohio Environmental Protection Agency (EPA) notes that work
             on the DIJCRI:'I'E transport and storage cask in Russia continued in 2007 but the
             long-term viability ofthe project is contingent upon finding a linited States
             commercial cask supplier company with which to partner. The Department of
             llncrgy (DOI:) expects to inform the Ohio EPA in the 2008 report that this work
             has stopped and no fi~rthcractions arc expected for the foreseeable f i ~ t i ~due
                                                                                            r c to
             lack o f commercial interest.

             Whilc we currently see no commercial use for the depleted uranium oxidc, we
             believe it may be bcncticial to reasscss interest as the conversion ljcililics near
             completion and can be expected to begin producing signiticant quantities of oxidc.
             I'o this end, the IIOE Ofticc of Environmental Management will issue an
             expression of interest related to the depleted uranium oxide to identify any
             potcntial interest from industry for this material. IIOE expects to issue this
             expression of interest by January 20 10.




Page 7                                                                           Management Comments
Appendix 2 (continued)




          I<cconimcndation 1 . Kc-engage industry on developing alternativc uscs for
          depleted uranium oxide;

          I.:M KESPONSE: EM will issuc an expression ol'interest related to the depleted
          uranium oxidc to identify any potcntial interest fiom industry lor this material.
          Iluc Ilatc: .lanuary 20 10.

          Kcco~nmc~lclation  2. Review and evaluate the feasibility to continue Iunding ti)r
          thc shielding applications associated with the storage, transport and disposal of
          spent nuclear li~cl:

          liM RIiSPONSE: Development and/or implc~ncntationol'commercial
          applications are not an appropriate mission of EM. 'L'hc current statc of research
          and dcvcloprnent in this area is mature enough for industry to develop
          com~nerciallyviable applications. No action required.

          Recommendation 3. ClaritL thc current status of rescarch for alternative uscs for
          depleted uranium oxide to the Director of thc Ohio EPA.

          tiM KESPONSt.:: I'ortsmouth/f'aducah Project Office will clarify the currcnt
          status o f research regarding potential uscs Sor the depletecl uranium oxidc in thc
          2008 annual report to the Director of the Ohio EI'A. Iluc Llatc: January 30, 2009.

          We believe these actions are rcsponsivc in addressing the concerns identitiecl in the
          report.

          Aclditional comments arc provided in the attachment.

          If you have any Li~rtherq~~estions,
                                            please call me at (202) 586-0738 or
          Mr. Barry Smith, Dircctor. Ofticc of Site Support at (301) 903-4482.

          Attachment




Page 8                                                                      Management Comments
                                                                    IG Report No. DOEIIG-0810

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                          http://www.i~.doe.gov

       Your comments would be appreciated and call be provided on the Customer Response Form
                                      attached to the report.
